Report No. DODIG-2012-116       August 7, 2012




    External Quality Control Review of the
    Defense Information Systems Agency
              Audit Organization
Additional Information and Copies
The Department of Defense, Office of the Assistant Inspector General for Audit Policy and
Oversight, prepared this report. To obtain additional copies of the final report,
visit www.dodig.mil/audit/reports or contact the Office of the Assistant Inspector General for
Audit Policy and Oversight at (703) 604-8760 or fax (571) 372-7454.

Suggestions for Reviews
To suggest or request reviews, contact the Office of the Assistant Inspector General for Audit
Policy and Oversight by phone (703) 604-8760 (DSN 664-8760), by fax
(571) 372-7454, or by mail:

                      Department of Defense Inspector General
                      OIG-APO
                      ATTN: Suite 11D28
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations

AIGA                          Assistant Inspector General for Auditing
DISA                          Defense Information Systems Agency
DITCO                         Defense Information Technology Contracting Organization
GAGAS                         Generally Accepted Government Auditing Standards
IG                            Inspector General
IRR                           Independent Reference Review
IUID                          Item Unique Identification
MIPR                          Military Interdepartmental Purchase Request
                                    INSPECTOR GENERAL·
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500




                                                                               AUG 7 2012


MEMORANDUM FOR DIRECTOR, DEFENSE INFORMATION SYSTEMS AGENCY

SUBJECT: External Quality Control Review of the Defense Information Systems Agency Audit
         Organization (Report No. DODIG-2012-116)

We are providing this report for your information and use. We have reviewed the system of
quality control for the audit organization of the Defense Information Systems Agency
Office of Inspector General (DISA IG) in effect for the period ended March 31 , 2011. A system
of quality control for DISA's


                 DISA IG is responsible for desig~g a system of quality control and complying
with its system to provide DISA IG management with reasonable assurance that its audits are
performed and reported on in accordance with GAGAS in all material respects.

Our review was conducted in accordance with GAGAS and guidelines established by the
Council of the Inspectors General on Integrity and Efficiency. We tested the DISA IG audit
organization's system of quality control to the extent we considered appropriate .. GAGAS
require that an audit organization performing audits in accordance with GAGAS have an
appropriate internal quality control system in place and ·undergo an external quality control
review at least once every 3 years by reviewers independent of the audit organization being
reviewed. An audit organization's·quality control policies and procedures should be
appropriately comprehensive and suitably designed to provide reasonable assurance that they
meet GAGAS requirements for quality control.

Federal audit organizations can receive a rating ofpass, pass with deficiencies, or fail. In our
opinion, the DISA IG audit organization's system of quality control for audits was suitably
designed in accordance with quality standards established by GAGAS; however, we identified
significant deficiencies that existed in the audit organization's compliance with its system of
quality control. The significant deficiencies identified do not provide DISA IG management
with reasonable assurance of performing and reporting in conformity with GAGAS in all
material aspects. Accordingly, as a result of the significant deficiencies described in
Appendix B, we are issuing a fail opinion on the DISA IG audit organization's system of quality
control used on audits for the review period ended March 31, 2011.

Appendix A discusses our review of the DISA IG system of quality control and
Appendix B contains matters that resulted in the fail opinion. In addition, Appendix C contains
comments and observations where the DISA IG audit organization can improve its quality
control program related to auditing practices. Appendix D contains a summary of the results of
our interviews with DISA IG audit staff. Appendix E contains the scope and methodology of the
review.
          (703) 604-8877 (DSN 664-8877).




-fa~~(sto~r
Deputy Inspector General
for Policy and Oversight
Introduction
Defense Information Systems Agency
The Defense Information Systems Agency (DISA) is a combat support agency that engineers and
provides command and control capabilities and enterprise infrastructure to continuously operate
and assure a global net-centric enterprise in direct support to joint warfighters, national level
leaders, and other mission and coalition partners across the full spectrum of operations. DISA is
headquartered at Fort Meade, Maryland and employs about 16,000 military and civilian
employees, and their contractor partners.

DISA IG Audit Organization
The DISA Office of the Inspector General (IG) is an independent office within DISA that
conducts, supervises, monitors, and initiates audits, inspections, and investigations relating to
programs and operations of DISA. DISA Instruction 100-45-1, “Inspector General of the
Defense Information Systems Agency,” dated April 11, 2008, establishes the mission of the
Office of the Inspector General and delineates its responsibilities, functions, authorities, and
relationships. The DISA IG audit organization is located at Headquarters and has a regional
office at Scott Air Force Base in Illinois. The audit organization promotes continuous
improvement in management controls by conducting audits and reviews of DISA operations and
financial activities to evaluate operational efficiency and effectiveness, and performing follow-
up procedures for prior audit recommendations. The IG reports to the Director/Vice Director,
DISA. Additional details on the DISA IG audit organization and the scope and methodology for
this review are contained at Appendix E.




                                                1
Appendix A. System of Quality Control Was
Suitably Designed
With the exception of two areas, the system of quality control for the DISA IG audit organization
was suitably designed. The DISA IG Audit Handbook (the Audit Handbook) contained policies
and procedures that established internal guidance and audit requirements, and if properly
followed, would provide reasonable assurance that GAGAS would be met.

The DISA IG audit organization performed work and issued reports covered in our review
pursuant to the July 2007 version of the Audit Handbook. The Audit Handbook was updated in
March 2011 to reflect current guidance as well as practical audit techniques and innovative
strategies.

The two areas where the Audit Handbook did not contain specific policies and procedures for
ensuring that audits and attestation engagements comply with GAGAS were:

   •   The Audit Handbook did not contain procedures for notifying the entity management
       when an impairment to independence is identified after the audit report is issued.

   •   The Audit Handbook did not contain procedures to ensure that the continuing education
       and training requirements for the agency's audit staff are met. Particularly, the Audit
       Handbook did not contain policies and procedures on how the audit organization
       documents and tracks formal continuing professional education and training.

Adding policies and procedures to the Audit Handbook to address these two areas is important to
ensure auditors are fully aware of their responsibilities while performing work under GAGAS.

Recommendation, Management Comments, and Our
Response

Recommendation
We recommend that the Director, DISA:

 1. Update the Audit Handbook to include policies and procedures that:

       a. Explain the process for notifying the entity management when an impairment to
          independence is identified after the audit report is issued.
       b. Explain how the audit organization documents and tracks formal continuing
          professional education and training.

Management Comments
The Inspector General, DISA concurred. DISA will update the Audit Handbook to include
explanations for the process for notifying the entity management when an impairment to


                                               2
independence is identified after the audit report is issued and how the audit organization
documents and tracks formal continuing professional education and training.

Our Response
The management comments are responsive. When completed, we request the Inspector General,
DISA, to provide us with a copy of the revised Audit Handbook.




                                                 3
Appendix B. Significant Deficiencies that Provide
the Basis for the Fail Opinion
We identified significant deficiencies that existed in the audit organization’s compliance with its
system of quality control. GAGAS 3.51 states that an audit organization’s system of quality
control encompasses the audit organization’s leadership, emphasis on performing high quality
work, and the audit organization’s policies and procedures designed to provide reasonable
assurance of complying with professional standards and applicable legal and regulatory
requirements. The significant deficiencies identified do not provide the DISA IG audit
organization with reasonable assurance of performing and reporting in conformity with generally
accepted government auditing standards (GAGAS) in all material respects. Therefore, we are
issuing a fail opinion on their external quality control review.

Significant deficiencies affecting our opinion on the DISA IG audit organization’s compliance
with its system of quality control are:

   •   Annual quality assurance reviews were not always performed and those performed were
       not effective;
   •   Nonaudit services were performed without an evaluation of potential independence
       impairments;
   •   DISA did not exercise sufficient professional judgment as evidenced by substantive
       noncompliance with GAGAS and their system of quality control on all four audit
       assignments reviewed;
   •   There was a lack of evidence of initial and final supervisory reviews of workpapers
       significant to supporting findings and conclusions;
   •   Auditors did not obtain sufficient and appropriate audit evidence to support findings and
       conclusions; and
   •   A letter report asserted a nonaudit service was conducted in accordance with GAGAS.

These significant deficiencies as identified above provide the basis for the opinion and our
concern about the audit organization’s inability to comply with the DISA IG quality control
system to provide reasonable assurance of compliance with GAGAS.

Implementing the recommendations identified in this report would assist the DISA IG’s efforts
in improving their audit organization’s system of quality control thereby helping to ensure
compliance with GAGAS requirements.

Quality Assurance Program
Annual Quality Assurance Reviews Not Always Performed and Those
Performed Deemed Not Effective
The DISA IG audit organization did not meet GAGAS and Audit Handbook requirements to
perform annual internal quality assurance reviews of their audits. Quality assurance reviews
were performed in November 2008 and February 2011, but there were no reviews conducted


                                                 4
during 2010. The February 2011 review was performed in preparation of our review of the
DISA IG audit operations being discussed in this report. 1 GAGAS 3.53f requires an audit
organization to perform an ongoing, periodic assessment of work completed on audits and
attestation engagements designed to provide management of the audit organization with
reasonable assurance that the policies and procedures related to the system of quality control are
suitably designed and operating effectively in practice. GAGAS 3.54 states the audit
organization should analyze and summarize the results of its monitoring procedures at least
annually, with identification of any systemic issues needing improvement, along with
recommendations for corrective action. The Audit Handbook states the Branch Chief will
perform annual internal quality assurance reviews of audits using guidance adapted from the
President’s Council on Integrity and Efficiency (PCIE) Guide for Conducting External Quality
Control Reviews of the Audit Operations of Offices of Inspector General. 2

Also, the DISA IG quality assurance program was not implemented in a manner to have
maximum effectiveness. During our analysis of the quality assurance reviews that were
performed in November 2008 and February 2011, we found that some of the issues identified by
DISA IG auditors were similar to those identified during this external quality control review
(refer to sections below). We also concluded that some of the issues the DISA IG auditors
identified were not integral to ensure that audit policies and procedures related to the system of
quality control were suitably designed and operating effectively in practice. In addition, the
audit organization did not take measures to correct problems and practices that could help ensure
compliance with applicable professional standards and quality control policies and procedures
for GAGAS audits. Lastly, both reviews were completed by a senior auditor, even though the
Audit Handbook states that Branch Chiefs will perform the annual reviews.

November 2008 Quality Assurance Review

There were five audits included in the quality assurance review. The review identified systemic
issues for all five audits; however, no recommendations were provided for corrective actions. To
address the issues identified, the Inspector General, Deputy Inspector General, Assistant
Inspector General for Auditing, and Branch Chiefs discussed each of the problem areas in some
detail to determine a course of action, but took measures only to improve the audit planning
process, and held a meeting with all of the auditors to ensure the auditors fully understood the
areas needing improvement.

Also, some of the issues identified by the DISA IG quality assurance reviewer were similar to
those identified during this external quality control review. For example, the DISA IG quality
assurance reviewer noted that:

      •    for three of the five projects, the audit plan was not updated to reflect changes made to
           the plan during the audit;


1
    The February 2011 review was entitled “Mock Peer Review”.
2
 The Inspector General Reform Act of 2008 changed the PCIE and Executive Council on Integrity and Efficiency
(ECIE) to the Council of Inspectors General on Integrity and Efficiency (CIGIE).


                                                       5
   •   for two of the five projects, the audit report did not include a description of the sampling
       design and why it was chosen when sampling significantly supported the auditors’
       findings, conclusions, or recommendations; and
   •   for one of the five projects, the audit report did not clearly explain the audit’s scope.

In addition, we determined that part of the quality assurance review was conducted using
outdated professional standards. Specifically, the review was performed using the 2003 version
of GAGAS, even though one of the five audits began after January 1, 2008. The July 2007
revision of GAGAS superseded the 2003 revision and became effective for performance audits
beginning on or after January 1, 2008, and for financial audits for periods beginning on or after
January 1, 2008.

February 2011 Quality Assurance Review

There were three audits included in the quality assurance review. According to the DISA IG, the
review was performed in preparation of the DOD OIG external quality control review. Also, two
of the three findings and recommendations the DISA IG presented were not vital to ensure
the audit organization was complying with its system of quality control and GAGAS. The
findings and recommendations would not provide reasonable assurance that the audit
organization is following applicable auditing standards and has established and is following
adequate audit policies and procedures. The DISA IG’s findings were:

   •   the Audit Handbook did not contain an organization chart, training matrix, or
       hiring/training policies and procedures applicable to 511 series;
   •   lack of electronic workpapers impeded the review and management control process of the
       Mock Peer Review; and
   •   some discrepancy between numbering of workpapers.

Furthermore, of the three audits reviewed as part of the DISA IG’s quality assurance review, one
was selected and examined by the DOD OIG as part of this external quality control review. It
was the Audit of Travel Vouchers Through the Defense Travel System. The DOD OIG review
team’s assessment disclosed deficiencies that the DISA IG did not. Specifically, the deficiencies
included:

   •   the audit plan was not updated to reflect changes made to the plan during the audit;
   •   the audit team did not develop the elements of a finding necessary to address the audit
       objectives (did not perform procedures to identify the reason or explanation for a
       condition that was identified);
   •   a finding in the audit report was inadequate (the effect was not adequately stated);
   •   the audit report did not clearly explain the audit’s scope, including the kinds and sources
       of evidence used;
   •   the audit report did not clearly explain the criteria used; and
   •   the independent reference review (IRR) certification for the final report was not signed
       by the Assistant Inspector General for Auditing (AIGA).




                                                 6
Recommendation, Management Comments, and Our
Response
Recommendation
We recommend that the Director, DISA:

    2. Establish a 2-year plan for both audit offices to review audits for compliance with
       internal quality assurance policies and procedures and GAGAS.

Management Comments
The Inspector General, DISA concurred. The DISA IG audit organization will conduct its
annual quality assurance assessment in compliance with GAGAS and the revised Audit
Handbook. Due to the small size of the Audit Division, an internal auditor will perform the
quality assurance assessments, and the Audit Handbook will be updated to reflect this change.

Our Response
The management comments are responsive. When completed, we request the Inspector General,
DISA, to provide us with a copy of the revised Audit Handbook.


Nonaudit Services
Nonaudit Services Performed With No Evaluation of Potential
Independence Impairments
During the period under review, the DISA IG audit organization performed three nonaudit
services and no formal documentation was prepared for evaluating potential independence
impairments for any of the nonaudit services. As a safeguard to ensuring that independence is
not impaired by performing a nonaudit service, GAGAS 3.30 states the audit organization should
document its consideration of the nonaudit services, including its conclusions about the impact
on independence. The Audit Handbook states that documentation for nonaudit services must
include evidence of analysis showing that the seven safeguards to independence were satisfied.
The seven safeguards are:

     •   document rationale that providing the nonaudit service does not violate the two
         overarching principles 3;
     •   establish and document an understanding with the audited entity regarding the objectives,
         scope of work, and product or deliverables of the nonaudit service, including an
         understanding that management is responsible for the results of the service;


3
  The DISA IG Audit Handbook is referring to the two overarching principles which are identified in GAGAS 3.22
(July 2007 Version of GAGAS). The two overarching principles are (1) audit organizations must not provide
nonaudit services that involve performing management functions or making management decisions and (2) audit
organizations must not audit their own work or provide nonaudit services in situations in which the nonaudit
services are significant or material to the subject matter of the audits.


                                                       7
   •   preclude personnel who perform nonaudit services from performing any related audit
       work (can be waived if less than 40 hours of work is performed);
   •   ensure that the scope and extent of audit work is not reduced beyond the level that would
       be appropriate if another unrelated party performed the nonaudit work;
   •   establish a quality control system that includes policies and procedures to consider the
       effect on ongoing, planned, and future audits and require a documented understanding
       with the audited entity management;
   •   communicate to the audited entity management that the audit organization will not be
       able to perform subsequent related audit work; and
   •   disclose related nonaudit service to peer reviewers, and make available the project
       documentation required.


Professional Judgment
Failure to Exercise Sufficient Professional Judgment
GAGAS 3.31 states that auditors must use professional judgment in planning and performing
audits and in reporting the results. GAGAS 3.35 states that using professional judgment in all
aspects of carrying out their professional responsibilities, including following the independence
standards and maintaining appropriate quality control over the assignment process is essential to
performing and reporting on an audit. In addition to the noncompliances in planning, performing
and reporting in each of the four audits reviewed, we also found noncompliances in 3 of the 4
audits in the independence standards area and in each of the 4 audits in the quality control
standards area. The Audit Handbook states that all auditors are responsible for complying with
GAGAS while carrying out their audit work and must justify any departures from GAGAS. We
determined that the DISA IG audit organization did not exercise professional judgment due to
the array of noncompliances found in the majority of auditing standards areas including quality
control and assurance, supervision, evidence, documentation, reporting, independence, planning,
and the use and application of GAGAS. The GAGAS areas where the audit organization lacked
professional judgment are included in the table below and discussed in detail throughout this
report.




                                               8
   DISA IG Audit Organization’s Noncompliances with GAGAS and System of Quality
                                     Control
    Audits       Independence    Quality    Planning    Performing:       Performing:    Reporting
   Reviewed                      Control                   Audit          Supervision
  (By Report                                            Evidence and
   Number)                                             Documentation
2011-02,
Compliance
with
Requirements
for Item
Unique                X             X          X              X                X             X
Identification
(IUID)
Clauses in
Supply
Contracts
2011-01,
Operational
Support               X             X          X                               X             X
Systems
Issues
2009-06,
Travel
Vouchers                            X          X              X                              X
Through
DTS
2009-01,
Incoming
                      X             X          X                                             X
MIPRs at
DITCO Scott


The table above depicts both significant deficiencies and deficiencies in multiple standards areas
which evidences a lack of professional judgment as defined in GAGAS 3.31 and 3.35. While the
significant deficiencies associated with the DISA IG audit organization's noncompliance with its
system of quality control serve as the basis for the fail opinion, this table also includes
noncompliances discussed in Appendix C to capture the lack of professional judgment in all
aspects related to the professional responsibilities of DISA auditors. We evaluated professional
judgment across the four audit projects reviewed, and the deficiencies coupled with the lack of
an adequate quality assurance program and issues related to nonaudit services from an
independence and reporting perspective.




                                                9
Supervision
There was No Evidence of Initial or Final Supervisory Reviews of
Workpapers that Supported Findings and Conclusions
For one of the four projects reviewed, we determined that several GAGAS and Audit
Handbook requirements pertaining to supervision were not followed because there was no
evidence of initial or final supervisory reviews of the audit work performed during the
fieldwork phase. For the “Audit of DISA Compliance with Requirements for IUID Clauses in
Supply Contracts,” Report No. 2011-02, there was no evidence of initial supervisory reviews
for the workpapers prepared to support the first audit finding and conclusions contained in the
audit report and no evidence of final supervisory reviews for the workpapers prepared to
support the second audit finding and conclusions contained in the audit report.

GAGAS 7.52 states that audit supervisors or those designated to supervise auditors must
properly supervise audit staff and GAGAS 7.80c states that auditors should document evidence
of supervisory review, before the audit report is issued, of the work performed that supports
findings, conclusions, and recommendations contained in the audit report. Further, GAGAS 7.79
states that the process of preparing and reviewing audit documentation contributes to the quality
of an audit. Audit documentation serves to: (1) provide the principal support for the auditors’
report; (2) aid auditors in conducting and supervising the audit; and (3) allow for the review of
audit quality. In addition to GAGAS, the Audit Handbook states the first and primary element
for ensuring the quality of audits is supervisory review of the project documentation and
supervisory review should be evident throughout the audit phase. The Audit Handbook also
states that supervisory signatures or initials on documentation, throughout the audit, will be
considered sufficient documentary evidence meeting the supervision fieldwork standard.

We found no evidence of any supervisory reviews for the 50 workpapers that detailed the audit
team’s analysis of the 50 sample items tested for the first finding. Also, for the second finding,
of the 29 analysis and summary workpapers prepared to support the testing of all 318 sample
items, there was no evidence of final supervisory reviews. We found that after their initial
reviews, supervisors provided comments to the preparer of the workpapers, but there was no
evidence that supervisors reviewed the workpapers again to determine whether the actions taken
by the preparer were sufficient.

Furthermore, supervisors did not complete the IRR process for the audit. During the IRR
process for the draft report, it was noted by the reviewer that the majority of the workpapers were
not reviewed and signed by the supervisors. This IRR deficiency was never corrected and the
supervisors did not sign off on the IRR certification.

Additional Deficiency in Audit Supervision
For the Audit of Operational Support Systems Issues, we identified where a working paper
supporting the findings, conclusions, and recommendations did not include evidence of
supervisory review and approval prior to final report issuance. Specifically, there was no
documentation of supervisory review for the summary workpaper that supported the second




                                                10
finding. Overall, there was evidence of supervisory reviews throughout the audit, but this
deficiency was noted due to the significance of the workpaper to the audit report.


Audit Evidence and Documentation
Auditors Did Not Obtain Sufficient and Appropriate Audit Evidence
For the “Audit of DISA Compliance with Requirements for IUID Clauses in Supply Contracts,”
Report No. 2011-02, the auditors did not obtain sufficient, appropriate evidence to provide a
reasonable basis for their findings and conclusions. GAGAS 7.55 states auditors must obtain
sufficient, appropriate evidence to provide a reasonable basis for their findings and conclusions,
and GAGAS 7.56 states the concept of sufficient, appropriate evidence is integral to an audit.
The Audit Handbook states that the information and evidence assembled and the conclusion
developed must form a sound basis for the findings and recommendations and, therefore, must be
supported by sufficient, competent, and relevant evidence. Also, the Audit Handbook states a
record of the evidence should be in the form of project documentation.

For the IUID audit, 93 percent of the testing results for the second finding were not supported by
sufficient and appropriate documentation. Specifically, of the 287 serial numbers/assets tested to
determine whether they were registered in a database, 257 were found not to be registered, and
even though database extracts were available for these exceptions, the audit team did not include
this information in the audit project file. 4 Also, there was no consistency pertaining to the
documentation that was maintained as evidence. For example, of the 30 serial numbers/assets
found to be registered, 19 were supported by printouts from the database. In addition, in some
instances, the audit team used e-mails with handwritten notes as supporting documentation. 5
The auditors wrote “Yes” and “No” on the e-mails to state whether or not a serial number was
registered. GAGAS A7.02 (Appendix I) states that the strength and weakness of each form of
evidence depends on the facts and circumstances associated with the evidence and professional
judgment in the context of the audit objectives. Documentary evidence, such as database
extracts, is a stronger form of evidence.

Due to the absence of sufficient and appropriate audit evidence, we determined that the report’s
conclusions were not adequately supported. For future audits, DISA IG auditors should ensure
that in assessing evidence, they evaluate whether the evidence taken as a whole is sufficient and
appropriate for addressing the audit objectives and supporting findings and conclusions.




4
    Database extracts stating "No Records Found" were available if serial numbers/assets were not registered.
5
    The e-mails were correspondences where the auditors requested and/or received the serial numbers.




                                                           11
Reporting
Letter Report Asserted a Nonaudit Service Was Conducted in
Accordance with GAGAS
The DISA IG issued a Letter Report to discuss the results of a nonaudit service and included the
unmodified GAGAS compliance statement in the report, which violated GAGAS 1.33. GAGAS
1.33 states that auditors must not report that a nonaudit service was conducted in accordance
with GAGAS. Further, the Audit Handbook states that when the Assistant IG issues a report on
a nonaudit service, the report must clearly indicate that the work was not done according to
GAGAS.

The Letter Report was issued for the Data Mining of DISA Government Travel Card Program
(Project No. 2010-H-301) in August 2010. The project initially began as an audit, but senior
management decided to change the project to a review due to problems in correctly correlating
data used. According to the Assistant Inspector General for Auditing, DISA IG auditors found
the data received from a particular source to be unreliable because some information was missing
from the database. Also, DISA IG auditors found causes for some of the omissions, but not all
of them. Because using the particular database would result in false positives, DISA IG auditors
did not report any findings or recommendations.

The DISA IG Audit Handbook does not contain policies and procedures for issuing a Letter
Report. This is the only instance where the DISA IG issued a Letter Report.

Recommendation, Management Comments, and Our
Response

Recommendation
We recommend that the Director, DISA:

 3. Issue a memorandum to the recipient of the Letter Report: Data Mining of DISA
    Government Travel Card Program (Project No. 2010-H-301), August 10, 2010, to
    state that the nonaudit service provided was not performed in accordance with
    GAGAS.

Management Comments
The Inspector General, DISA concurred. A memorandum to the recipient of the Letter Report:
Data Mining of DISA Government Travel Card Program (Project No. 2010-H-301),
August 10, 2010 will be issued to state that the nonaudit service provided was not performed in
accordance with GAGAS.

Our Response
The management comments are responsive. When completed, we request the Inspector
General, DISA, to provide us with a copy of the memorandum that was issued.



                                               12
Appendix C. GAGAS Noncompliances
Warranting Disclosure Due to Their Importance
to the Quality Control System
The DISA IG audit organization’s performance during the audits showed evidence of
noncompliance in five additional GAGAS areas pertaining to audit evidence and documentation,
reporting, independence, planning, and quality control. These five areas of noncompliance were
not considered to be significant and did not affect the opinion rendered, but due to their relative
importance to the audit organization’s system of quality control, they warrant disclosure.
For each of the five areas, the auditors did not:

   •   audit evidence and documentation
           o properly develop the elements of a finding;
   •   reporting
           o adequately present the elements of a finding, and
           o adequately explain the audit’s scope and methodology;
   •   independence
           o complete a Statement of Independence, and
           o assess the independence of a specialist;
   •   planning
           o update audit programs to reflect changes,
           o obtain an understanding of the qualifications of a specialist, and
           o approve audit plans in accordance with procedures established in the quality
               control system; and
   •   quality control
           o comply with independent reference review policies and procedures.

All Elements of a Finding Were Not Sufficiently Developed
For the Audit of Travel Vouchers Through the Defense Travel System, we identified a
deficiency where the audit evidence and documentation was not sufficient to address the audit
objectives and to support the findings and conclusions. Specifically, the auditors did not
properly develop the elements of a finding necessary to address the audit objectives.

GAGAS 7.72 states auditors should plan and perform procedures to develop the elements of a
finding necessary to address the audit objectives, and a finding or set of findings is complete to
the extent that the audit objectives are addressed. The Audit Handbook states that during the
fieldwork phase of a performance audit, the team should collect, analyze, interpret, and
document the information and evidence needed to accomplish the audit objectives and to support
the audit results and conclusions.

For the Audit of Travel Vouchers through the Defense Travel System, a secondary objective was
to determine whether vouchers had required supporting documents and expenses were supported
by receipts when required. The audit team did not perform procedures to identify the reason or
explanation for a condition nor establish a clear, logical link to establish the impact or potential


                                                13
impact of the difference between the situation that existed and the required or desired state. For
example, one of the conditions that existed was that travel vouchers (38 of 196 travel vouchers)
within the travel system were missing required receipts; travelers sought payments totaling
approximately $28,600 in travel expenses that were not substantiated. It was implied by the
recommendation in the audit report that the travel receipts were missing because they were not
properly uploaded into the system by the travelers. There was no evidence in the workpapers to
indicate that DISA IG auditors evaluated whether travelers did not comply with the requirements
for uploading travel receipts, nor was it confirmed that travelers failed to properly upload the
travel receipts into the system. A root or underlying cause for the missing receipts was never
supported.


Reporting
Findings in Audit Reports Were Inadequate
DISA IG’s audit reports were not presented with a clear and concise summarization of the audit
findings and conclusions. For three of the four projects we reviewed (the Audit of Operational
Support System Issues, the Audit of Travel Vouchers through DTS, and the Audit of Incoming
MIPRs at DITCO Scott), the audit report contained findings which were not adequately
developed. GAGAS 8.14 states clearly developed findings assist management or oversight
officials of the audited entity in understanding the need for taking corrective action. The Audit
Handbook states that the finding summary paragraphs should summarize the finding by
highlighting condition, cause, and effect; be concise; and give the reader a general understanding
of the problem(s) and foreshadow the need for recommended action(s).

For the Audit of Operational Support Systems Issues, two of the three findings’ elements were
not sufficiently developed. For example, there was no effect provided for Finding B; the audit
team did not describe the consequences of the actions taken, particularly when the results
showed variation from regulations. In Finding C, the condition was actually the cause and the
effect was the condition. Specifically, the audit report stated the following:




                                                14
                        Finding C: Circumstances of Netcool Software Acquisition were
                                   Wasteful

               NS8 initiated a purchase request for Micromuse Netcool Software (Netcool
               software) in September 2006, prior to completing the required architectural
               design and implementing strategy (Condition). Thus, NS8 expended more than
               three years of funds in unused licenses and maintenance fees, prior to installing
               the Netcool software in June 2008 and making the software operational in
               December 2009 (Effect). These conditions occurred because NS8 originally
               sought to avoid losing $724,256 in procurement funds set to expire in FY 2006.
               As a result, NS8 expended $3,684,129 for Netcool Software licenses and annual
               maintenance fees for FY 2006 through FY 2009 for software that went unused
               from its acquisition in FY 2007 to June 2008 (Effect). This purchase did not
               provide the best value for the Government and precluded DISA from expending
               these procurement funds on other validated requirements.

For the Audit of Travel Vouchers Through the Defense Travel System, one of the four findings
was not sufficiently developed. Specifically, the effect was not adequately stated in Finding
Three. The audit report stated that because individuals were not able to provide copies of
documentation detailing their job-related duties and responsibilities, they may not know how to
properly perform their duties. A more appropriate effect would have been that the individuals
may not know what duties they are to perform. Since the effect may be used to demonstrate the
need for corrective action in response to identified problems or relevant risks, auditors should
ensure that the effect is concise.

For the Audit of Incoming MIPRs at DITCO Scott, both of the finding summary paragraphs did
not include the causes and effects. While the causes and effects were sometimes identified in the
following discussion sections related to the findings, omission of the cause and effect in the
finding summary paragraphs did not meet Audit Handbook requirements. According to the
Regional IG at DISA, the summary finding paragraphs for the audit report were prepared in
accordance with guidance received from senior management in October 2008. Senior
management presented a new format as to how the summary finding paragraph should be
constructed, which did not include the cause and effect. Instead, the cause and effect were to be
included in the sub-findings. The July 2007 version of the DISA IG Audit Handbook was never
updated to include this new guidance.

The Audit’s Scope and Methodology Was Inadequately Explained
The DISA IG did not adequately explain the audit’s scope and methodology in the audit report
for two of the four projects we reviewed. Specifically, the audit reports did not clearly explain:

   •   the audit’s scope, including the relationship between the population (universe) and the
       items tested (sample size);
   •   the audit’s scope, including the kinds and sources of evidence used;
   •   how the audit’s methodology and completed audit work supports the audit objectives,
       including the criteria used; and/or
   •   how the audit’s methodology and completed audit work support the audit objectives,
       including when the sampling significantly supports the auditors’ findings, conclusions, or
       recommendations, a description of the sampling design and why it was chosen.



                                                     15
GAGAS 8.11 states that auditors should describe the scope of the work performed and any
limitations, including issues that would be relevant to likely users, so that they could reasonably
interpret the findings, conclusions, and recommendations in the report without being misled.
The Audit Handbook states that the report must address the objectives, scope, and methodology
or approach used in conducting the audit. The scope and methodology used for achieving the
audit objectives are usually included in Appendix A of the audit report. In addition, if sampling
was used, the team should describe the sample design and why it was chosen. The description
should include the size of the sample and the dollar value associated with it, if appropriate. They
should also fully discuss sampling plan and sample results, but avoid presenting complex
statistical analyses and formulas. Further, the Audit Handbook states GAGAS requires that the
team should explain the evidence gathering and analytical techniques in sufficient detail to allow
knowledgeable users of their reports to understand how the auditors answered the audit
objective. Specific examples of the deficiencies in explaining the audit’s scope and methodology
are detailed in the table that follows.




                                                16
     Audit Project             Listing of Deficiencies in Explaining the Audit’s Scope and
                                                        Methodology
 Audit of Compliance              • The specific number of contracts (20) used for the second
 with Requirements for                finding were not mentioned in Appendix A. Also, auditors
IUID Clauses in Supply                did not clearly explain whether the 20 contracts were part
 Contracts (Project No.               of the 50 contracts used in the first finding.
     2010-H-304)                  • The Contracting Officer Representative/Task Monitor
                                      database used to verify training requirements was not
                                      identified in Appendix A as kinds and sources of evidence
                                      used. A review of the database was completed as part of
                                      Finding B. The auditors found that some of the
                                      Contracting Officer Representatives/Task Monitors had not
                                      completed mandatory training.
                                  • For the second finding, Appendix A did not describe the
                                      sample designs or why they were chosen.
    Audit of Travel               • Appointment records and training documents obtained and
Vouchers Through the                  reviewed were not identified in Appendix A as kinds and
Defense Travel System                 sources of evidence used. The review of these documents
 (Project No. 2009-H-                 was discussed in Finding Three. Specifically, the auditors
          301)                        found that Authorizing Officials and Certifying Officials
                                      did not maintain copies of appointment letters as required
                                      by the DoD Financial Management Regulation. Also, the
                                      Authorizing Officials and Certifying Officials did not
                                      provide requested training documentation so that the
                                      auditors could verify that training requirements, as
                                      described in Public Law 104-106, were met.
                                  • Public Law 104-106 was not properly defined in the audit
                                      report (Finding Three). This criteria should have been
                                      defined and supported in the report itself, not referenced in
                                      another criteria (Defense Travel Management Office Guide
                                      [DTMO]). Public Law 104-106 is the overarching criteria
                                      and the DTMO Guide implements it.

Independence
Auditors and Specialist Did Not Certify their Independence
For two of the four audits we reviewed, two of the eight auditors assigned to the projects did not
complete a Statement of Independence. Also, for one of the four audits, the audit team did not
ensure that a statistician completed a Statement of Independence. GAGAS 3.02 states that in all
matters relating to the audit work, the individual auditor must be free from personal, external,
and organizational impairments to independence. GAGAS 3.05 states when auditors use the
work of a specialist, auditors should assess the specialist’s ability to perform the work and report
results impartially as it relates to their relationship with the program or entity under audit. The
Audit Handbook states that all employees, including technical experts assigned to audits must
certify their independence or impairment to independence for each project. Whether or not a


                                                 17
person is directly charging time to a project, that person must certify their independence by
completing the Statement of Independence.

For the Audit of Compliance with Requirements for IUID Clauses in Supply Contracts, one of
the five auditors assigned to the project did not complete a Statement of Independence. In
addition, for the Audit of Operational Support Systems Issues, one of the three auditors assigned
to the project did not complete a Statement of Independence. Also, for this audit, a supervisor
did not sign a team member’s Statement of Independence as required by the Audit Handbook,
which states that the next level supervisor (Project Leader or Assistant IG) reviews and signs the
Statement of Independence. By signing the Statement of Independence, supervisors agree that it
appears that no personal or external impairments to independence exist.

For the Audit of Incoming MIPRs at DITCO Scott, a statistician who the audit team collaborated
with did not complete a Statement of Independence. One of the factors that helped the auditors
select the sample that was used for the audit was the statistician's suggestions.


Planning
Deficiencies in Audit Planning
We found that all four of the projects reviewed lacked compliance with GAGAS and Audit
Handbook requirements for audit planning. The deficiencies in audit planning were caused by a
lack of:

   •   updating the audit program to reflect changes made to the plan during the audit;
   •   obtaining an understanding of the qualifications of a specialist; and
   •   approving audit plans in accordance with the procedures established in the quality control
       system.

Audit Plans Not Updated to Reflect Changes in Scope
For two of the four projects, the audit program was not modified to reflect a change in the audit’s
scope. GAGAS 7.06 states that auditors must adequately plan and document the planning of the
work necessary to address the audit objectives. Also, GAGAS 7.50 states auditors should update
the plan, as necessary, to reflect any significant changes to the plan made during the audit. In
addition, the Audit Handbook states if changes in the scope of the audit occur as the audit
proceeds, the audit program should be modified to reflect the changes.

For the Audit of Operational Support Systems Issues, the audit program was not modified as
required by the Audit Handbook to reflect a change in the total number of contracts in the
universe the audit team used to pull a judgmental sample. Initially, the universe contained 34
contracts valued at $25.1 million. However, the universe changed from 34 contracts to 33
contracts, which were valued at $24.9 million.

For the Audit of Travel Vouchers Through the Defense Travel System, the audit program was
not updated to reflect a change regarding whose (civilian versus military) travel vouchers the
audit team would review. Management initially decided that only the travel documents of


                                                18
civilian personnel would be reviewed, but it was later decided upon to review the travel
documents of military personnel as well.

Qualifications of Specialist Not Assessed
For one of the four projects, the auditors did not assess the qualifications of an external specialist
that assisted in performing the audit. GAGAS 3.49 states that auditors who use the work of
external specialists should assess the professional qualifications of such specialists and document
their findings and conclusions. The Audit Handbook states auditors who use the work of
specialists should document that the specialists are qualified in their areas of specialization.

One of the factors that helped the auditors select the sample that was used for the Audit of
Incoming MIPRs at DITCO Scott was a statistician's suggestions. The audit team sought
confirmation from the statistician regarding potential confidence levels, error rates, and sample
sizes to be considered for the audit. An external specialist’s qualifications should be assessed to
verify their professional qualifications in their field of work.

Audit Programs Not Approved in Accordance with Policies and Procedures
For two of the four projects, Audit of Compliance with Requirements for IUID Clauses in
Supply Contracts and Audit of Operational Support Systems Issues, the audit program was not
approved in accordance with the Audit Handbook. The Audit Handbook states the DISA IG
must approve the written audit program before the beginning of the audit verification phase by
signing off on the plan either electronically or hardcopy signature. Although there was
documentation where the audit approach was discussed with senior management, there was no
evidence of final approval of the audit plan because senior management did not sign off on the
plan either electronically or hardcopy signature.

Additional Quality Control Policies and Procedures
Inputs to the quality control system at the DISA IG include independent reference reviews and
the use of project technical checklists, which should be applied to most projects. These measures
help to ensure that products issued are accurate, complete, and logical, and provide reasonable
assurance that the audit organization has adopted and is following applicable auditing standards,
and has established and is following adequate audit policies and procedures.

For three of the four projects we reviewed, we identified several deficiencies related to the audit
organization’s independent report referencing process and use of project quality control
checklists-performance audits. The majority of the deficiencies revolved around the independent
reference review process, which can have an adverse effect on the overall process.

Deficiencies in the Independent Reference Review Process
The Audit Handbook provides policy and guidance for quality control independent referencing
reviews of audits the AIGA conducts. It implements portions of GAGAS on professional
judgment, quality control, and reporting. The Audit Handbook states that independent
referencing is an integral part of the audit quality control process that helps to ensure that the
draft and final reports are accurate and adequately supported by the audit documentation.




                                                 19
For three of the four projects, we identified several instances where DISA IG auditors did not
comply with the DISA IG’s IRR policies and procedures for performance audits. The following
table specifies the noncompliances that were identified.

     Audit Project               Listing of Deficiencies Identified for the IRR Process
 Audit of Compliance         •   AIGA did not sign IRR certification for the draft report.
 with Requirements for       •   Performance Branch Chief/Project Leader did not sign the IRR
IUID Clauses in Supply           certification prior to the issuance of the draft report. The
 Contracts (Project No.          Chief/Project Leader's electronic signature was affixed on
     2010-H-304)                  June 9, 2011. The date of the draft report was
                                  December 7, 2010.
                             •   The independent reference reviewer did not note on the IRR
                                 Sheet (draft report) that the audit program was not properly
                                 completed, and signed by the Assistant IG and Project
                                 Leader. In addition, the independent reference reviewer did
                                 not verify that an approved written audit program existed.
                             •   The Project Leader did not ensure that the underlying project
                                 documentation supporting the report was reviewed before the
                                 IRR began.
 Audit of Operational        •   The independent reference reviewer did not verify that an
Support Systems Issues           approved written audit program existed.
 (Project No. 2010-H-        •   The independent reference reviewer did not note that some of
          303)                   the project documentation did not have evidence of
                                 supervisory review.
                             •   Project Leader did not ensure that the underlying project
                                 documentation supporting the report was reviewed before the
                                 IRR began.
                             •   AIGA did not sign IRR certification for the draft report.
                             •   AIGA and the Project Leader did not sign IRR certification for
                                 the final report.
                             •   The final report was not fully referenced. Specifically, the
                                 cross-referenced final report did not contain the Management
                                 Comments (the sections after each individual finding was
                                 discussed).
    Audit of Travel          •   The AIGA did not sign the IRR certification for the final
Vouchers Through the             report.
Defense Travel System
 (Project No. 2009-H-
          301)

Reference Reviews at the Regional Office
Due to limited staff assigned to the regional office, the office did not conduct IRRs. The
Regional IG supervised the audit work, performed reference reviews for the audit reports, and
ensured quality control on all projects.




                                               20
For the one project we reviewed at the regional office, the Audit of Incoming MIPRs at DITCO
Scott, we identified areas within the reference review process that need improving to ensure that
audit reports are fully supported. For example, we identified instances where references used to
support the audit report lacked pertinent information and further explanations were required.
Although these instances were noted, they did not make the audit report unreliable; an
independent evaluation of the completeness and accuracy of the evidence used to support the
report may have revealed the reference deficiencies we noted. Examples of the reference
deficiencies included:

   •   summary workpaper (Purpose section) used to show analysis performed for both of the
       audited entities only identified one entity, not both;
   •   an example used to support a minor concern the auditors identified was not referenced;
   •   numbers used in a table in the report were not found in the reference provided; and
   •   a reference provided did not support the statement in the report.

Use of Project Quality Control Checklists
For one of the four audits we reviewed, the Audit of Operational Support Systems Issues, the
Project Quality Control Checklist was not signed by the Branch Chief. Supervisors and team
leaders use the Project Quality Control Checklists throughout the course of audits as a reminder
of GAGAS requirements for project planning, supervision, project documentation, and reporting.
The Audit Handbook states that at the conclusion of each project, the checklist is to be signed by
the Branch Chief and the Auditor-in-Charge. The Branch Chief’s signature confirms that they
have completed the checklist and all requirements of the checklist have been met.

Recommendations, Management Comments, and Our
Response

Recommendations
We recommend that the Director, DISA:

 4. Take action to improve the audit organization’s understanding and compliance of the
    following GAGAS standards: professional judgment, supervision, audit evidence,
    audit documentation, reporting requirements, performing and reporting on nonaudit
    services, independence, and planning.

Management Comments
The Inspector General, DISA concurred. In-house training will be provided in coordination with
updates to the Audit Handbook.

Our Response
The management comments are responsive. We request the Inspector General, DISA, to provide
us with a copy of the training syllabus and curriculum to ensure ourselves all standards covered
by this recommendation are adequately addressed.



                                               21
 5. Reevaluate the audit organization’s goal to complete audits within 180 days. While
    we cannot definitively conclude that the 180-day timeframe resulted in the significant
    deficiencies and additional deficiencies we identified, this timeframe may not be
    reasonable and may have an effect on the audit organization’s operations and ability
    to comply with GAGAS.

Management Comments
The Inspector General, DISA concurred. The current goal of completing audits within 180 days
will be reevaluated.

Our Response
The management comments are responsive. We request the Inspector General, DISA, to provide
us with a copy of the evaluation plan for audit completion timeframes.


 6. Ensure audit management incorporates guidance, such as the new format for
    presenting summary finding paragraphs in audit reports, and any other audit and
    reporting practices that have already been implemented, into the Audit Handbook.

Management Comments
The Inspector General, DISA concurred. Guidance from senior management will be
incorporated in the next update to the Audit Handbook.

Our Response
The management comments are responsive. When completed, we request the Inspector General,
DISA, to provide us with a copy of the revised Audit Handbook.




                                             22
Appendix D. Summary of Interview Results
Relating to DISA IG Audit Policies and GAGAS
We interviewed nine staff members of the DISA IG audit organization to determine their
knowledge of DISA IG audit policies and GAGAS. The interviews consisted of questions
related to the DISA IG audit policies and GAGAS, fieldwork standards, and reporting standards.
A summary of the results of the responses received follows:

Areas Pertaining to DISA IG Audit Division                 Responses to Questions
      Policies and GAGAS Standards
    1. Awareness of DISA IG Audit Policies      All staff were aware of the audit policies.

     2. Compliance with GAGAS                   Most staff stated that their work complied with
                                                GAGAS standards.
     3. Independence                            Most staff did not encounter any external or
                                                organizational independence impairments
                                                when performing their work.

                                                All staff stated that they did not perform any
                                                nonaudit services that could impact
                                                independence.
     4. Competence                              Staff responses indicated that the competency
                                                requirement was fulfilled.
     5. Quality Control and Assurance           Depending on years of auditing experience
                                                and length of employment at the DISA IG,
                                                answers varied from extensive to minimal
                                                understanding of quality control procedures.
     6. Planning (Key Decisions)                Staff involved with audit planning documented
                                                key planning decisions and communicated with
                                                the client throughout the planning phase.
     7. Planning (Fraud)                        Staff performed risk assessments for the audit
                                                programs.
     8. Supervision                             All staff stated that they received or provided
                                                adequate supervision.
     9. Audit Documentation                     Staff provided examples of processes
                                                performed to ensure that audit reports are
                                                properly supported.
    10. Evidence                                Staff provided examples of actions to ensure
                                                that audit evidence is supported in the final
                                                report.
    11. Reporting (Timeliness)                  The audit organization’s goal is to complete
                                                audits within 180 days.




                                              23
Appendix E. Scope and Methodology
We reviewed the adequacy of the DISA IG audit organization’s compliance with their quality
control policies, procedures, and GAGAS. We reviewed three audits at DISA IG Headquarters
and one audit at the Regional Office.

We reviewed the adequacy of the design of policies and procedures that the DISA IG audit
organization established to provide reasonable assurance of compliance with GAGAS in the
conduct of its audits and attestation engagements. The DISA IG Audit Handbook, July 2007
version, was the policy and guidance document that was reviewed.

In performing our review, we considered the requirements of quality control standards and other
auditing standards contained in the 2007 Revision of GAGAS issued by the Comptroller General
of the United States. GAGAS 3.56 states:

              The audit organization should obtain an external peer review sufficient
              in scope to provide a reasonable basis for determining whether, for the
              period under review, the reviewed audit organization’s system of
              quality control was suitably designed and whether the audit
              organization is complying with its quality control system in order to
              provide the audit organization with reasonable assurance of conforming
              with applicable professional standards.

We performed this review from March 2011 through October 2011 in accordance with standards
and guidelines established in the March 2009 Council of the Inspectors General on Integrity and
Efficiency “Guide for Conducting External Peer Reviews of Audit Organizations of the Federal
Offices of Inspector General.” In performing this review, we assessed, reviewed, and evaluated:

   •   the adequacy of the design of policies and procedures that the DISA IG audit
       organization established to provide reasonable assurance of compliance with GAGAS in
       the conduct of its audits and attestation engagements;
   •   staff understanding of quality control policies and procedures;
   •   independence documentation and records of continuing professional education to verify
       the measures that enable the identification of independence impairments and maintenance
       of professional competence;
   •   independence safeguards for nonaudit services; and
   •   four audit reports and related project documentation to determine whether established
       policies, procedures, and applicable standards were followed.

We selected four reports from a universe of 14 reports issued by the DISA IG during FY 2009,
FY 2010, and until March FY 2011. We tested the four projects for compliance with the DISA
IG audit organization’s system for quality control for audits and attestation engagements. Also,
we performed a minimal review of the project documentation for one additional project in which
a Letter Report was issued.




                                                    24
In selecting the reports, we worked with the DISA IG audit organization to establish the universe
of reports that were issued during the review period. We then selected reports that were
representative of the types of reviews completed. The DISA IG did not issue any financial audit
reports during the review period.

The following table identifies the specific reports we reviewed at both audit offices. The “Type
of Review” column contains information that was determined by the report GAGAS compliance
statement and/or type of review described in the final report.

      Audit Office                 Report Title, Number, Issue Date           Type of Review
  DISA IG Headquarters           2011-02, “Audit of Compliance with            Performance
                                 Requirements for Item Unique
                                 Identification Clauses in Supply
                                 Contracts,” February 3, 2011
                                 2011-01, “Audit of Operational                Performance
                                 Support Systems Issues,” December
                                 17, 2010
                                 2009-06, “Audit of Travel Vouchers            Performance
                                 Through the Defense Travel System,”
                                 August 25, 2009
  DISA IG Regional Office        2009-01, “Audit of Incoming MIPRs at          Performance
                                 DITCO Scott,” November 13, 2008

Limitations of Review
Our review would not necessarily disclose all weaknesses in the system of quality control or all
instances of noncompliance because we based our review on selective tests. There are inherent
limitations in considering the potential effectiveness of any quality control system. Departures
from GAGAS can result from misunderstood instructions, mistakes in judgment, carelessness, or
other human errors. Projecting any evaluation of a quality control system is subject to the risk
that one or more procedures may become inadequate because conditions may change or the
degree of compliance with procedures may deteriorate.




                                               25
Defense Information Systems Agency Comments




                    26
27
28
29
